Audit Report




OIG-13-023

Management Letter for the Audit of the Department of the
Treasury’s Fiscal Years 2012 and 2011 Financial Statements

December 10, 2012




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL                           December 10, 2012


            MEMORANDUM FOR NANI A.COLORETTI
                           ACTING ASSISTANT SECRETARY FOR MANAGEMENT

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the Department of the
                                  Treasury’s Fiscal Years 2012 and 2011 Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Department of the Treasury’s (Department) Fiscal Years 2012 and
            2011 financial statements. Under a contract monitored by the Office of Inspector
            General, KPMG LLP (KPMG), an independent certified public accounting firm,
            performed an audit of the Department’s FY 2012 and 2011 financial statements.
            The contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG issued, and is responsible for, the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting that was identified during the audit, but was not required to be included
            in the auditors’ report.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Ade Bankole, Manager, Financial Audits at
            (202) 927-5329.

            Attachment
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




December 7, 2012


Inspector General
U.S. Department of the Treasury:

We have audited the financial statements of the U.S. Department of the Treasury (Department) as of
and for the year ended September 30, 2012, and have issued our report thereon dated November 15,
2012. We did not audit the amounts included in the consolidated financial statements related to the
Internal Revenue Service (IRS) and the Office of Financial Stability (OFS), component entities of the
Department. The financial statements of IRS and OFS were audited by another auditor whose reports
have been provided to us. Our opinion, insofar as it relates to the amounts included for IRS and OFS, is
based solely on the reports of the other auditor.

In planning and performing our audit of the financial statements of the Department, in accordance with
auditing standards generally accepted in the United States of America, we considered the Department’s
internal control over financial reporting (internal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements but not for the
purpose of expressing an opinion on the effectiveness of the Department’s internal control.
Accordingly, we do not express an opinion on the effectiveness of the Department’s internal control.

Our audit of the Department’s financial statements as of and for the year ended September 30, 2012
disclosed the following material weakness, significant deficiency, noncompliance, and other matter
that are described in our Independent Auditors’ Report dated November 15, 2012.

A. Material Weakness in Internal Control Over Financial Reporting at the IRS (Repeat condition)

B. Significant Deficiency in Internal Control in Information Systems Controls at the Bureau of the
   Fiscal Service (Repeat Condition)

C. Noncompliance with Federal Financial Management Improvement Act of 1996 (Repeat Condition)

D. Other Matter of Potential Violation of the Anti-Deficiency Act (Repeat Condition)

During our audit we noted a matter involving internal control that is summarized below for your
consideration. In addition, we and the other auditors noted additional matters that were reported
separately to component management. This comment and related recommendations, all of which have
been discussed with the appropriate members of management, are intended to improve internal control
or result in other operating efficiencies.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
1. Accounting for International Assistance Transactions

The Department needs effective internal controls over the accounting and reporting of Multilateral
Development Banks (MDBs) and debt restructuring transactions to ensure that transactions are
accurately recorded and properly classified. The Department did not fully establish internal controls
over such transactions as follows:

a. Multilateral Development Banks

The Department, on behalf of the United States, provides funding and letters of credit to the
Multilateral Development Banks (MDBs) and various funds administered by the MDBs. In fiscal year
2012, the Department prepared and issued an accounting policy manual that covers the accounting of
the MDBs; however, the Department did not fully analyze and properly determine the accounting
policy for letters of credit. Specifically, the Department’s accounting policy indicated that the
Department should record the letters of credit related to funds administered by the MDBs as costs at
the time of request by the MDBs rather than as liabilities at the time the letter of credit is issued. In
addition, the Department’s policy did not require disclosure of all outstanding letters of credit related
to MDBs, as required by accounting standards.

b. Debt Restructuring Transactions

The Department periodically receives appropriations from Congress to fund debt restructuring
transactions for the reduction in principal and/or interest of loans due to the U.S. Government from a
foreign government. After Congress appropriates funds, the Department apportions funds to specific
loans, and the creditor agency submits a request for funds, the Department disburses the funds to the
federal agency that holds the loan due from the foreign country. In fiscal year 2012, the Department
prepared and issued an accounting policy manual that covers the accounting of debt restructuring
transactions; however, the Department did not fully analyze and properly determine the accounting for
debt restructuring transactions. Specifically, the Department’s accounting policy indicated that the
Department should record debt restructuring transactions as a liability when the funding is requested
by the federal agency rather than after the agreement is approved by the Department and funding is
authorized by Congress.

As a result of our observations, the Department analyzed and adjusted its accounting and reporting for
MDBs and debt restructuring transactions.

Recommendations

We recommend that the Department’s Deputy Chief Financial Officer work with the Bureau of the
Fiscal Service to implement the following recommendations to improve internal controls over MDBs
and debt restructuring transactions:

    1. Update its accounting policy related to letters of credit and debt restructuring to be in
       accordance with accounting standards, and

    2. Remind those preparing accounting policies to fully research and consider the accounting
       standards.




                                                   2
Management Response

Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit the Department’s response and, accordingly, we express no
opinion on it.

                                              *******

Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that may exist.
We aim, however, to use our knowledge of the Department’s organization gained during our work to
make comments and suggestions that we hope will be useful to you.

We would be pleased to discuss this comment and related recommendations with you at any time.

This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.

Very truly yours,




                                                   3
